                                                              ~      SECU
                                                            :)(j~~
                                                            W/fJs~~

                                                            \h!111111 J
                                                                .'VlST\\.!'


                                           SOOAL                  SECURITY



MEMORANDUM                                     Office of the Inspector General

       September      17,   2001                                                                   ReferTo:
                                                                                                              31261-23-214
To:    Larry    G. Massanari
       Acting    Commissioner
         of Social   Security


       Inspector General


Subject: Summary     of Fiscal   Year   2000    Single   Audit       Oversight    Activities   (A-07 -00-10032)



       The attached final report presents the results of our review. Our objective was to
       summarize areas of internal control weaknesses at State Disability Determination
       Services reported in State single audits and identified during Fiscal Year 2000 single
       audit oversight activities.

       Please comment within 60 days from the date of this memorandum on corrective action
       taken or planned on each recommendation. If you wish to discuss the final report,
       please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
       General for Audit, at (410) 965-9700.


                                                                                                       4
                                                                         ~HUse,                 Jr,

       Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



      SUMMARY OF FISCAL
    YEAR 2000 SINGLE AUDIT
     OVERSIGHT ACTIVITIES

 September 2001   A-07-00-10032




  MANAGEMENT

ADVISORY REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          Executive Summary
OBJECTIVE
Our objective was to summarize areas of internal control weaknesses at State Disability
Determination Services (DDS) reported in State single audits and identified during
Fiscal Year 2000 single audit oversight activities.

BACKGROUND
On July 5, 1996, the President signed the Single Audit Act Amendments of 1996, Public
Law No. 104-156. The Amendments extended the statutory audit requirement to
non-profit organizations and revised various provisions of the 1984 Single Audit Act
including raising the Federal financial assistance dollar threshold for requiring an audit
from $100,000 to $300,000. On June 30, 1997, Office of Management and Budget
issued revised Circular A-133, “Audits of States, Local Governments, and Non-Profit
Organizations” to implement the 1996 amendments. The revised Circular A-133 was
effective July 1, 1996, and applies to audits of fiscal years beginning after
June 30, 1996. This circular requires nonfederal entities that expend $300,000 or more
per year in Federal awards to have a single or program-specific audit conducted for that
year.

The Social Security Administration (SSA) is responsible for the policies on developing
disability claims under the Disability Insurance (DI) and the Supplemental Security
Income (SSI) programs. In accordance with Federal regulations, the DDS in each State
performs disability determinations under the DI and SSI programs. The DDS
determines claimants’ disabilities and ensures that adequate evidence is available to
support its determinations. SSA reimburses the DDS for 100 percent of allowable
expenditures. There are 54 DDSs located in the 50 States, the District of Columbia,
Puerto Rico, Guam, and the Virgin Islands. All DDSs are subject to single audit
coverage except the federally administered Virgin Islands DDS.

RESULTS OF REVIEW
We reviewed 53 single audits and compiled and categorized the findings as direct and
crosscutting. The 53 single audits covered State fiscal year (SFY) operations
(2 SFY 1996 single audits, 1 SFY 1997 single audit and 50 SFY 1998 single audits) at
51 DDSs. Direct findings are findings specifically identified to the DDS. Crosscutting
findings are not specifically identified to the DDS, however, they could have an affect on
the DDS. Our review disclosed common findings in the following categories: cash
management, procurement, equipment and real property management, reporting, and
allowable costs. The findings relate to DDS’ noncompliance with Federal requirements
because of weaknesses in internal controls. Thirteen of the 53 single audits reported
direct findings and 42 reported crosscutting findings (see Appendix A).



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                     i
SSA’s Office of the Inspector General (OIG) conducts audits of DDS administrative
costs. Recent OIG audits of the District of Columbia and Oregon DDSs also disclosed
findings in the cash management and allowable cost areas. These findings relate to
DDS’ noncompliance with Federal requirements because of weaknesses in internal
controls. Appendix D summarizes the OIG’s findings.

In our opinion, comparison of the District of Columbia and Oregon DDS findings in the
single audits and the OIG audits for the same reporting period disclosed significant
differences. The OIG reported findings on unsupported costs, unallowable costs,
expenditures charged to the wrong year, and excessive cash draws. The single audits,
however, did not report all of these findings. This comparison is presented in our report
for informational purposes only. We will report our comparison to the Federal agency
responsible for the District of Columbia and Oregon single audits in a separate
management letter for any action it deems appropriate.

          OREGON AND DISTRICT OF
          COLUMBIA SINGLE AUDIT                     OIG ADMINISTRATIVE AUDIT
            QUESTIONED COSTS                           QUESTIONED COSTS
                   $0                                       $111,088

CONCLUSIONS AND RECOMMENDATIONS
We believe that SSA should be proactive in providing internal control guidance to the
DDSs. To do so, SSA should provide the following instructions to DDSs.

•   Adhere to the terms of the Cash Management Improvement Act agreement.

•	 Implement procurement procedures to prevent the awarding of contracts and
   subawards to debarred or suspended parties.

•   Follow established procurement instructions.

•   Implement controls to prevent unauthorized computer access.

•	 Develop a formal contingency plan to prevent disruption of services in the event of a
   disaster.

•	 Maintain complete and accurate equipment inventory records and perform periodic
   physical inventories.

•	 Implement effective procedures for preparing, reviewing, approving, and timely
   reporting of information on the Report of Obligations and the Time Report of
   Personal Services.

•	 Ensure that costs charged to SSA benefit its programs and are properly authorized
   and documented.


Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                    ii
AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations. See
Appendix E for the full text of SSA's comments to our draft report.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)               iii

                                                            Table of Contents

                                                                                                                          Page


INTRODUCTION .......................................................................................................... 1


RESULTS OF REVIEW................................................................................................ 5


    Cash Management.................................................................................................. 5


    Procurement............................................................................................................ 7


         •    Debarment and Suspension ......................................................................... 7

         •    Other Contracting Requirements.................................................................. 7


    Equipment and Real Property Management ........................................................... 8


         •    Computer Controls ....................................................................................... 8

         •    Property Controls ......................................................................................... 9


    Reporting................................................................................................................. 9


         •    Inaccurate Financial Reports........................................................................ 9

         •    Untimely Financial Reports......................................................................... 10


    Allowable Costs..................................................................................................... 10


    Comparison of Single Audit and OIG Findings...................................................... 12


         •    District of Columbia DDS............................................................................ 12

         •    Oregon DDS............................................................................................... 12


CONCLUSIONS AND RECOMMENDATIONS .......................................................... 13


APPENDICES

APPENDIX A – Summary of Single Audits Reviewed During FY 2000


APPENDIX B – Direct Findings Reported in 13 Single Audits

APPENDIX C – Crosscutting Findings Reported in 42 Single Audits

APPENDIX D – Findings Identified by the OIG During the Same Time Frame as the
             Single Audits Reviewed

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)
                                                                       Acronyms

AIS            Automated Information Systems

CFDA           Catalog of Federal Domestic Assistance

CMIA           Cash Management Improvement Act

DDS            Disability Determination Services

DI             Disability Insurance

FY             Fiscal Year

OIG            Office of the Inspector General

OMB            Office of Management and Budget

OSRAP          Office of Statewide Reporting and Accounting Policy

POMS           Program Operations Manual System

SFY            State Fiscal Year

SSA            Social Security Administration

SSI            Supplemental Security Income





Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)
                                                                    Introduction

OBJECTIVE
Our objective was to summarize areas of internal control weaknesses at State Disability
Determination Services (DDS) reported in State single audits and identified during
Fiscal Year 2000 Single Audit oversight activities. To accomplish our objective we
reviewed 53 single audits, covering 51 DDSs1 and compiled and categorized findings
that were identified as directly affecting DDS operations and crosscutting findings that
potentially affect DDS operations. Thirteen of the 53 single audits reported direct
findings and 42 reported crosscutting findings. Appendix A lists the 53 single audits
reviewed and identifies those with direct and/or crosscutting findings.




                                                   Findings
                                          Direct    Crosscutting    Both




1
 The 53 single audits included 2 State fiscal year (SFY) 1996 single audits, 1 SFY 1997 single audit, and
50 SFY 1998 single audits. Illinois and Montana were not included in our review because their audits are
performed biennial and SFY 1998 will be covered in the 1998/1999 single audits. The federally
administered Virgin Islands DDS is not required to have a single audit.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                    1
BACKGROUND
Single Audit Act

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996, Public
Law No. 104-156.2 The Amendments extended the statutory audit requirement to
non-profit organizations and revised various provisions of the 1984 Single Audit Act—
including raising the Federal financial assistance dollar threshold for requiring an audit
from $100,000 to $300,000. On June 30, 1997, the Office of Management and Budget
(OMB) issued revised Circular A-133, “Audits of States, Local Governments, and
Non-Profit Organizations” to implement the 1996 amendments. The revised Circular
A-133 was effective July 1,1996, and applies to audits of fiscal years (FY) beginning
after June 30, 1996. This circular requires nonfederal entities that expend $300,000 or
more per year in Federal awards to have a single or program-specific audit conducted
for that year.

State DDSs

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act to provide benefits to disabled wage earners and their families. In 1972,
Congress enacted the Supplemental Security Income (SSI) program. The SSI program
provides income and disability coverage to financially needy individuals who are aged,
blind or disabled.

The Social Security Administration (SSA) is responsible for the policies on developing
disability claims under the DI and SSI programs. According to Federal regulations,
disability determinations under the DI and SSI programs are performed by the DDS in
each State. The DDS determines claimants’ disabilities and ensures that adequate
evidence is available to support its determinations. SSA reimburses the DDS for
100 percent of allowable expenditures. There are 54 DDSs located in the 50 States, the
District of Columbia, Puerto Rico, Guam, and the Virgin Islands.

Each DDS is managed by a State parent agency, which also administers other State
and Federal programs. There are also other agencies within the State that administer
various aspects of Federal programs, such as cash draws and electronic data
processing.




2
 The Single Audit Act Amendments and revised Circular A-133 apply to all State Fiscal Year 1997 and
1998 single audits. The Single Audit Act and Circular A-128 apply to the single audit of Michigan and
Puerto Rico for 1996.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                    2
Direct and Crosscutting Findings

In conducting single audits, the auditor uses a risk-based approach to determine what
Federal programs will receive audit coverage. The single audit also includes an audit of
the State’s financial statements. These two parts of the single audit may result in the
identification of direct or crosscutting findings.

Direct findings are specifically identified to the Federal programs they affect. The direct
SSA findings are identified in single audits by Catalog of Federal Domestic Assistance
number 96. The single audits also report findings that impact more than one Federal
program, referred to as crosscutting. However, crosscutting findings may not be
identified to any one Federal program or may not be identified to all Federal programs
they affect. In addition, due to the limited scope of the single audit, the auditor may
identify findings for a Federal program that also affect other Federal programs but the
audit did not consider whether the weakness existed for the SSA funded programs.
While crosscutting findings are not specifically identified to SSA, they could have an
impact on DDS operations.

SCOPE AND METHODOLOGY
From October 1999 to May 2001, we reviewed 53 single audits, the related
recommendations, and auditee responses. Thirteen of the 53 single audits reported
direct findings related to DDSs. These findings, questioned costs, and related
recommendations were previously reported on a state-by-state basis to SSA’s
Management Analysis and Audit Program Support Staff for audit resolution. In addition,
42 of the 53 single audits reported crosscutting findings that could possibly affect DDS
operations. To identify crosscutting findings we reviewed all findings reported for the
State agency that managed the DDS and State agencies that performed functions for
the DDS.

We also reviewed the:

�	 Single Audit Act of 1984, Single Audit Act Amendments of 1996, OMB Circular
   A-128, revised OMB Circular A-133, and the OMB Circular A-133 Compliance
   Supplement (June 1998 revision).

�	 OMB “Uniform Administrative Requirements for Grants and Cooperative Agreements
   to State and Local Governments (Common Rule).”

�	 OMB Circular A-87, “Cost Principles for State, Local and Indian Tribal
   Governments.”

�   Title II and title XVI of the Social Security Act.

�   SSA’s Program Operations Manual System (POMS) instructions.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                      3
�   Cash Management Improvement Act (CMIA) of 1990.

�   SSA’s Systems Security Handbook.

�	 Office of the Inspector General (OIG) administrative cost audit reports for the
   District of Columbia and Oregon DDSs.3

The Compliance Supplement identifies 14 types of compliance requirements that
auditors should consider in performing single audits. Our review of the 53 single audits
identified direct and crosscutting findings in 5 categories: cash management,
procurement, equipment and real property management, reporting, and allowable costs.
This report presents the findings by the related Compliance Supplement category.




3
 OIG audits of the District of Columbia and Oregon DDSs are the only OIG audits covering the same
period as the single audits discussed in this report.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                4
                                              Results of Review

Our analysis of the findings in 53 single audit reports disclosed similar internal control
weaknesses in the categories of cash management; procurement; equipment and real
property management; reporting; and allowable costs. The findings relate to DDS’
noncompliance with Federal requirements because of weaknesses in internal controls.
Appendix B summarizes the 13 single audits with direct findings by DDS. Appendix C
summarizes the 42 single audits with crosscutting findings by DDS.

The SSA, OIG audits at the District of Columbia and Oregon DDSs disclosed findings in
the cash management and allowable cost categories. These findings also relate to
DDS’ noncompliance with Federal requirements because of weaknesses in internal
controls. Appendix D summarizes the OIG audit findings.

In our opinion, comparison of the District of Columbia and Oregon DDS findings in the
single audits and the OIG audits for the same reporting period disclosed significant
differences. The OIG reported findings on unsupported costs, unallowable costs,
expenditures charged to the wrong year, and excessive cash draws. The single audits,
however, did not report all of these findings. This comparison is presented for
informational purposes only. We will report our comparison to the Federal agency
responsible for the District of Columbia and Oregon single audits in a separate
management letter for any action it deems appropriate.

CASH MANAGEMENT
The Congress enacted the CMIA of 1990, Public Law No. 101-453, to ensure efficiency,
effectiveness, and equity in transferring funds between the States and Federal
government. The law requires the Federal government to enter into an agreement with
States covering applicable Federal programs and to establish procedures and
requirements for transferring Federal funds.

The CMIA requires the States to minimize the time elapsing between the receipt and
disbursement of Federal funds and allows the Federal government to charge interest
when a State receives Federal funds in advance of disbursements. The CMIA also
allows the State to charge interest when it incurs costs for Federal programs before
Federal funds are made available. The State calculates Federal and State interest
liabilities for each applicable program4 and reports liabilities to the Federal government
on the Annual Report to the United States Department of the Treasury. 5


4
    31 CFR 205.13
5
    31 CFR 205.15




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                         5
The lack of cash management controls creates problems in States’ identifying and
assessing allowable cash needs. Without proper internal controls, DDSs may draw
cash in excess of allowable expenditures. Premature cash draws also cause the
Federal government to lose interest on the funds.

Nine single audits reported direct findings related to States not adhering to the CMIA
agreement:

•	 The Alabama DDS’ parent agency did not draw funds in accordance with the CMIA
   agreement. This resulted in increasing the State’s interest liability by an amount not
   determined by the auditor. This finding was also reported in the prior year’s single audit.

•	 The Arizona DDS’ parent agency provided the State’s accounting office with
   incomplete documentation on cash draws subject to CMIA. This resulted in incorrect
   calculations of the State’s CMIA interest liability in an amount not determined by the
   auditor.

•	 Cash draws made for the District of Columbia’s DDS were posted to incorrect
   revenue source codes used to identify Federal programs and to record the amount of
   cash draws for each Federal grant. This could result in the DDS drawing of excess
   Federal funds. This finding was also reported in the prior year’s single audit.6

•	 The cash draws made by the Delaware DDS’ parent agency were not in accordance
   with the terms of its CMIA agreement. Specifically, administrative costs were not
   drawn based on an average clearance method.

•	 The Iowa Department of Revenue and Finance, who makes cash draws for the Iowa
   DDS, did not have adequate controls over the administration of the CMIA
   Agreement. Written procedures were not developed and beginning balances,
   account numbers, and payroll information were not verified.

•	 The Louisiana Office of Statewide Reporting and Accounting Policy, who makes
   cash draws for the Louisiana DDS, used inaccurate clearance pattern information to
   request cash draws.

•	 The State of Pennsylvania’s DDS held Federal funds drawn for employee payroll tax
   and benefit costs for extended periods of time resulting in material noncompliance
   with cash management standards and an undetermined amount of interest liability
   due to the Federal government. This finding was also reported in the prior year’s
   single audit.




6
    This finding was reported in both the SFY 1997 and 1998 single audit reports.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                     6
•	 The Texas DDS’ parent agency did not recalculate the number of days from the date
   funds were received to the date the funds were disbursed upon converting to a new
   cash draw system. This resulted in interest liability to the Federal government of
   $10,307.

Similar cash management crosscutting findings were identified in 20 single audits (see
Appendix C).

PROCUREMENT
Debarment and Suspension

The DDS is prohibited from contracting with or making subawards to parties who are
suspended or debarred. The transactions include procurement contracts for goods or
services equal to or in excess of $100,000. The DDS may rely upon the certification
from the party unless it knows that the certification is erroneous. Procedures should be
established and in place for the effective use of the List of Parties Excluded From
Federal Procurement or Nonprocurement Programs to assure that they do not award
assistance to listed parties in violation of Executive Order 12549. Failure to obtain
debarment and suspension certificates creates the possibility of contracting with
excluded parties.

The New York single audit disclosed that the                 POMS DI 39542.220 states that the
                                                             DDS cannot obtain examinations from
State did not have procedures to identify and                a      medical     or    psychological
exclude from its procurement process those                   consultant, consultative examiner
subcontractors and subrecipients barred from                 provider, or diagnostic test facility
participation in Federal programs.                           that is currently excluded, suspended
                                                             or otherwise barred from participation
                                                             in    the   Medicare    or    Medicaid
Similar crosscutting findings were identified in             programs, or any other Federal
12 single audits (see Appendix C).                           program.

Other Contracting Requirements

DDS Management should ensure that procurement instructions are in accordance with
POMS instructions, which require contracts to be obtained through a competitive
bidding process.7 Once the contract is awarded, a written agreement should be
obtained that: (1) defines a sound and complete procurement contract; (2) identifies the
parties covered in the contract; and (3) specifies the work to be performed.8 Without the
proper implementation of procurement instructions, issues of acceptable practice,
conflicts-of-interest, and standards of ethical and moral behavior could be questioned.



7
    POMS DI 39542.205
8
    POMS DI 39542.215




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                              7
Eight single audits identified crosscutting findings in the following areas of procurement:

   •   Purchases were made without obtaining competitive bids, and

   •   Contracts did not contain all the required documentation and authorizations.

EQUIPMENT AND REAL PROPERTY MANAGEMENT
Computer Controls

DDSs operate computer systems critical to the administration of SSA’s disability
programs. These systems issue payments for administrative expenses and contain
confidential claimant information including Social Security numbers. SSA requires
DDSs to develop, distribute, and implement a formal computer security policy
addressing the confidentiality of sensitive information, data integrity, and authorized
access to information. A DDS’ computer security policy should identify computer
access controls to ensure only authorized users access the system. Access controls
include the use of personal identification numbers to identify users, passwords to
authenticate the user’s identity, and profiles to specify the functions users can perform.

SSA’s Systems Security Handbook, dated December 1998, instructs DDSs to make
every reasonable effort to avoid disruption of critical applications processed by
automated data files and automated information systems (AIS) facilities. Furthermore, a
DDS must also minimize, and be prepared to recover, from any disruption that occurs.
Contingency plans should be documented as a part of a DDS’ overall AIS security
program.

Access controls and contingency planning are essential to the administration of the
disability program. Without proper access controls the DDS is open to security risks.
Accidental or intentional modifications to confidential and sensitive information can
adversely affect the quality of services and lead to unauthorized and inaccurate
disbursements. The lack of a contingency plan could cause a disruption of DDS claims
processing and result in poor service to disability claimants.

Three single audits disclosed direct findings related to weaknesses in computer
controls.

•	 The Alabama DDS’ parent agency did not develop and implement a formal
   contingency plan to be followed in the event of a disaster that could adversely affect
   the operations of its data processing center.

•	 The Minnesota DDS’ parent agency: (1) had insufficient security administration
   procedures; (2) granted employees inappropriate access to mainframe data; and
   (3) did not have a comprehensive disaster recovery plan. These findings were also
   reported in the prior year’s single audit.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                         8
•	 The Pennsylvania DDS did not have adequate general controls over its computer
   system in the areas of logical access and contingency planning. This finding was
   also reported in the prior year’s single audit.

Similar crosscutting computer systems and applications findings were identified in
19 single audits (see Appendix C).

Property Controls

The DDSs are responsible for the maintenance, tagging, and inventory of all property
acquired with SSA funds.9 Inventory records must include: (1) a description; (2) source
of funds used in the purchase; (3) cost; (4) inventory number; (5) date purchased; and
(6) physical location. The lack of proper controls over inventory could result in
misappropriation or improper disposition of property acquired with Federal funds.

Eleven single audits identified crosscutting findings related to weaknesses in equipment
inventory.

•	 Procedures for the use, management, and disposition of equipment were not
   followed.

•     Annual physical inventories were not performed as required in the Federal policies.

•     Equipment inventory records were not adequately maintained.

REPORTING
Inaccurate Financial Reports

At the end of each quarter, each DDS is required to submit to SSA a Form SSA-4513
(Report of Obligations) and Form SSA-4514 (Time Report of Personal Services).10 The
Report of Obligations shows DDS disbursements, unliquidated obligations, and
cumulative obligations for the following categories: personal services, medical costs,
indirect costs, all other nonpersonnel costs. The Time Report of Personal Services
shows the regular and overtime hours worked by DDS personnel on SSA disability
determinations.

The inaccuracies on the Reports of Obligations indicate an internal control weakness in
the DDS’ preparation, review, and approval of these reports prior to submitting them to
Federal officials. Without the proper mechanisms in place to identify risks of faulty
reporting caused by such items as lack of knowledge, inconsistent application,

9
    POMS DI 39530.020
10
     POMS DI 39506.815, DI 39506.827




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                        9
carelessness or disregard for standards, reliable processing of Federal awards would
not be performed.

•	 The Michigan DDS’ program expenditure amounts reported to SSA on the Report of
   Obligations (Form SSA-4513) were $1.8 million more than the amounts reported in
   the State’s accounting system for the 2-year period ending September 30, 1996.

•	 In addition, the Michigan DDS’ program expenditures on the Schedule of Federal
   Financial Assistance were $2.2 million greater than, and $1.9 million less than,
   amounts reported in the State’s accounting system for FYs 1995 and 1996,
   respectively.

Similar crosscutting reporting findings were identified in 21 single audits. These findings
also concluded that various Federal reports were not being reconciled to the accounting
records, supervisory reviews were not being conducted, and reports were not being
properly authorized (see Appendix C).

Untimely Financial Reports

The DDSs are instructed to simultaneously submit the Report of Obligations and the
Time Report of Personal Services to SSA by the 30th day after the close of each
quarter. Without accurate and timely reporting, DDS obligations and expenditures
cannot be traced and accounted for each FY. Late submission of these reports indicate
an internal control weakness in the DDS’
procedures for timely reporting of information    POMS DI 39506.815 instructs DDSs to
to SSA.                                           submit the Report of Obligations and
                                                          the Time Report of Personal Services
                                                                           th
                                                          to SSA by the 25 day after the close
•	 The District of Columbia Department of                 of each quarter. However, in a letter
   Human Services 1998 single audit noted                 to all Regional Commissioners, dated
   that Federal financial reports were not                October 22, 1992, SSA extended the
   submitted timely. The names of the                     DDS’ due date for these forms to the
                                                            th
   Federal reports submitted late were not                30    day after the close of each
                                                          quarter.
   specifically identified.

In addition, similar crosscutting findings were identified in four single audits in the area
of untimely reporting (see Appendix C).

ALLOWABLE COSTS
Allowable costs must be reasonable and necessary for the performance and
administration of Federal awards, as stated in OMB Circular A-87. A cost is allocable to
a program or department if the goods or services involved are charged or assigned in
accordance with benefits received. A cost may not be assigned to a Federal award as a
direct cost if any other cost incurred for the same purpose was allocated to the Federal
award as an indirect cost. In order to recover indirect costs, the organization must
prepare cost allocation plans, which apply to States or indirect cost rate proposals in


Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                              10
accordance with the guidelines provided in OMB’s circulars. Costs must be net of all
applicable credits that result from transactions that reduce or offset direct or indirect
costs.

Internal control directives require that nonfederal entities receiving Federal awards
establish and maintain internal controls designed to reasonably ensure compliance with
Federal laws, regulations and program compliance requirements. Transactions should
be properly recorded, accounted for, and executed in compliance with applicable laws
and regulations. The DDS is required to maintain supporting documentation listing
allowable and unallowable expenditures and adjustments for unallowable costs
recorded. Also, funds, property, and other assets should be safeguarded against loss
from unauthorized use or disposition.11

The absence of controls over goods and services charged to Federal awards allows the
risk for misappropriation or misuse of funds. In addition, unallowable activities or costs
could be charged to a Federal program and not be detected if proper internal controls
are not in place to ensure that costs benefit the program and are properly authorized
and documented.

Two single audits reported direct findings related to inadequate internal controls over
allowable costs:

•	 The Mississippi DDS’ parent agency did not have a system in place to account for
   the time DDS employees spent on non-SSA work.

•	 The New York DDS’ parent agency did not: (1) properly review the allowance of
   claims; (2) perform voucher reviews of training contractor costs; (3) follow OMB
   Circular A-87 standards for cost allocation methodologies; (4) perform proper
   reviews of employee time sheets; and (5) properly maintain vouchers supporting
   personal service, non-personal service, and training costs.

Crosscutting weaknesses related to allowable costs were disclosed in 32 single audits.
The findings were in the following areas:

•	 Payroll costs charged to Federal programs were not supported by time and
   attendance records. In addition, payroll costs were charged to Federal programs on
   which employees did not work.

•	 Indirect costs were not properly authorized, included costs charged directly to
   Federal programs, and were not equitably distributed to Federal programs.

•	 Direct costs charged to Federal programs were not properly authorized, reviewed,
   documented, or recorded.

11
     OMB Common Rule, Subpart C, Section 20




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                        11
COMPARISON OF SINGLE AUDIT AND OIG FINDINGS
OIG conducts audits of claims by DDSs for administrative costs based on the frequency
of prior audits as well as annual referrals by SSA’s Office of Disability. Starting in
FY 2002 OIG plans to provide increased audit coverage by using a cyclical audit plan
that will provide for a more timely and effective review of administrative costs. The
schedule will be based on the following factors: (1) past administrative audits,
(2) dollars at risk, and (3) any potential modifications made as a result of suggestions
made by SSA.

             Annual Administrative Cost
                 Incurred by DDS                            Audit Frequency
                  Over $50 million                           Every 3 years
                 $20 to $50 million                           5 to 7 years
                 Under $20 million                            7 to 10 years

The objectives of the audits are to determine whether: (1) expenditures and obligations
are properly authorized and disbursed; (2) Federal funds drawn agree with total
expenditures; and (3) internal controls over the accounting and reporting of
administrative costs are adequate.

We performed two administrative cost audits—District of Columbia and Oregon DDSs—
covering the same SFY operations as the single audits we reviewed. Our comparison
of the direct single audit findings and OIG findings disclosed notable differences. The
findings reported by OIG but not in the single audits are discussed below.

District of Columbia DDS

The OIG administrative cost audit at the District of Columbia’s DDS covered the period
October 1994 through September 1997. The audit identified (1) unsupported costs;
(2) costs claimed for non-DDS work; and (3) internal control weaknesses over medical
evidence of record purchases (See Appendix D). The single audit did not disclose
these findings.

Oregon DDS

The OIG administrative cost audit at the Oregon DDS covered the period October 1995
through September 1998. The Oregon DDS had (1) incorrect FY rental payments; and
(2) drawdowns that exceeded disbursements (See Appendix D). The single audit did
not report any direct findings for the Oregon DDS.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                  12
                                              Conclusions and
                                              Recommendations
SSA should be proactive in providing internal control guidance to DDSs. To do so, SSA
should provide the following instructions to the DDSs.

1. Adhere to the terms of the CMIA agreement.

2. 	 Implement procurement procedures to prevent the awarding of contracts and
     subawards to debarred or suspended parties.

3. Follow established procurement instructions.

4. Implement controls to prevent unauthorized computer access.

5. 	 Develop a formal contingency plan to prevent disruption of services in the event of a
     disaster.

6. 	 Maintain complete and accurate equipment inventory records and perform periodic
     physical inventories.

7. 	 Implement effective procedures for preparing, reviewing, approving, and timely
     reporting of information on the Report of Obligations and the Time Report of
     Personal Services.

8. 	 Ensure that costs charged to SSA benefit its programs and are properly authorized
     and documented.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations. See
Appendix E for the full text of SSA's comments to our report.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                     13
                                              Appendices





Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)
                                                                                                                                                                  Appendix A
Summary of Single Audits Reviewed During
Fiscal Year (FY) 2000
                                                                                                    1                                                                                                 2
                                                            Direct Findings                                                                      Crosscutting Findings




                                                                                                                                                                  Property Management4
                                                                         Property Management4
                            State


                                        Cash Management




                                                                                                                               Cash Management
                            Fiscal




                                                                         Equipment/Real




                                                                                                                                                                  Equipment/Real
                                                                                                             Allowable Costs




                                                                                                                                                                                                          Allowable Costs
                  State      Year




                                                                                                                                                   Procurement3
                                                          Procurement3
                            (SFY)




                                                                                                Reporting5




                                                                                                                                                                                         Reporting5
    Alabama                  1998       X                                     X                                                                      X                 X                                  X
    Alaska                   1998                                                                                                                                                          X              X
    Arizona                  1998       X                                                                                      X                     X                 X                   X
                  6
    Arkansas                 1998
    California               1998                                                                                              X                                                           X
    Colorado                 1998                                                                                              X
    Connecticut              1998                                                                                                                    X                                     X              X
    Delaware                 1998       X                                                                                      X                     X
    District of Columbia     1997       X                                                                                      X                     X                 X                   X              X
    District of Columbia     1998       X                                                         X                            X                     X                 X                   X              X
    Florida                  1998                                                                                                                    X                 X                   X              X
    Georgia                  1998                                                                                                                    X                 X                                  X
    Guam                     1998                                                                                              X                     X                 X                   X              X
    Hawaii                   1998                                                                                                                    X                                     X              X
    Idaho                    1998                                                                                                                                                                         X
             7
    Indiana                  1998
    Iowa                     1998       X                                                                                      X                     X                                     X              X
              7
    Kansas                   1998
    Kentucky                 1998                                                                                                                                      X                   X              X

1
    See Appendix B for detailed direct findings.
2
    See Appendix C for detailed crosscutting findings.
3
    This category includes findings that were identified in the areas of debarment and suspension and/or
    other contracting requirements.
4
    This category includes findings that were identified in the areas of computer controls and/or property
    controls.
5
    This category includes findings that were identified in the areas of inaccurate and/or untimely reporting.
6
    The single audit did not report any findings.
7
    The single audit reported findings, however, they did not have the potential to affect the DDS.


Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                                                                                                                                        A-1
                                                                                                  1                                                                                                 2
                                                          Direct Findings                                                                      Crosscutting Findings




                                                                                                                                                                Property Management4
                                                                       Property Management4
                           State




                                      Cash Management




                                                                                                                             Cash Management
                           Fiscal




                                                                       Equipment/Real




                                                                                                                                                                Equipment/Real
                                                                                                           Allowable Costs




                                                                                                                                                                                                        Allowable Costs
              State         Year




                                                                                                                                                 Procurement3
                                                        Procurement3
                           (SFY)




                                                                                              Reporting5




                                                                                                                                                                                       Reporting5
    Louisiana               1998      X                                                                                      X                                       X                                  X
    Maine                   1998                                                                                             X                     X                                     X              X
             7
    Maryland                1998
    Massachusetts           1998                                                                                             X                                       X                                  X
    Michigan              1997/1998                                                                                          X                                                                          X
    Michigan              1995/1996                                                             X                            X                                                                          X
    Minnesota               1998                                            X                                                                      X                 X
    Mississippi             1998                                                                           X                                                                                            X
    Missouri                1998                                                                                                                                                                        X
    Nebraska                1998                                                                                             X                                       X                   X              X
    Nevada                  1998                                                                                                                                                         X
                      7
    New Hampshire           1998
              7
    New Jersey              1998
                  6
    New Mexico              1998
    New York                1998                          X                                                X                                                                             X              X
    North Carolina          1998                                                                                             X                     X                 X                   X              X
    North Dakota          1997/1998                                                                                          X                                       X                                  X
    Ohio                    1998                                                                                                                                     X                   X
             7
    Oklahoma                1998
    Oregon                  1998                                                                                                                                     X                                  X
    Pennsylvania            1998       X                                    X                                                X                     X                 X                   X              X
                                8
    Puerto Rico             1996                                                                                             X                                       X                   X              X
    Rhode Island            1998                                                                                             X                     X                 X                   X              X
    South Carolina          1998                                                                                                                                     X                   X
                 7
    South Dakota            1998
    Tennessee               1998                                                                                                                                     X                                  X
    Texas                   1998       X
    Utah                    1998                                                                                                                   X                 X                                  X
    Vermont                 1998                                                                                                                                                         X              X
    Virginia                1998                                                                                                                                     X
    Washington              1998                                                                                                                   X
    West Virginia           1998                                                                                                                   X                                                    X
    Wisconsin               1998                                                                                             X                                       X                   X              X
              7
    Wyoming                 1998

Note: See page A-1 for explanation of footnotes 1 through 7.


8
    SFY 1996 was the latest single audit for the Puerto Rico DDS available for review.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                                                                                                                                      A-2
                                                                                    Appendix B
Direct Findings Reported in 13 Single Audits
                                                                                       QUESTIONED
   STATE                               DIRECT FINDINGS
                                                                                         COSTS
                 1. The parent agency for the Alabama Disability Determination                $0
                    Services (DDS), the Department of Education, did not draw
                    funds in accordance with the Cash Management
                    Improvement Act (CMIA) agreement, which caused an
                    increase in the State’s interest liability in an amount not
                    readily determinable. This finding was also included in the
   Alabama
                    State’s single audit for the prior year.

                 2. The Department did not develop and implement a formal                      0
                    contingency plan to be followed in the event of a disaster that
                    could adversely affect the operations of its data processing
                    center.
                 1. The parent agency for the Arizona DDS, the Department of                   0
                    Economic Security, provided the State’s General Accounting
                    Office with incomplete documentation on the Federal award
    Arizona
                    draws subject to the CMIA. This resulted in incorrect
                    calculations of the State’s CMIA interest liability in an amount
                    undetermined by the auditor.

                 1. Cash draws made on behalf of the District of Columbia DDS                  0
   District of      were posted to incorrect revenue source codes, which are
   Columbia         used to identify Federal programs and to record the amount
     1997           of cash draws for each Federal grant. This could result in
                    DDS draws of excess Federal funds.
                 1. Cash draws made on behalf of the District of Columbia DDS                  0
                    were posted to incorrect revenue source codes, which are
                    used to identify Federal programs and to record the amount
                    of cash draws for each Federal grant. This could result in
   District of
                    DDS draws of excess Federal funds. This finding was also
   Columbia
                    reported in the prior year’s single audit.
     1998
                 2. Federal financial reports were not submitted timely. The                   0
                    single audit report did not specifically identify the Federal
                    reports submitted late.
                 1. Cash draws made by the Delaware DDS’ parent agency,                        0
                    Department of Labor, were not in accordance with the terms
   Delaware
                    of its CMIA agreement, which requires administrative costs to
                    be drawn based on an average clearance method.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                           B-1

                                                                                     QUESTIONED
   STATE                              DIRECT FINDINGS
                                                                                       COSTS
                 1. The State of Iowa did not have adequate controls over the                 $0
                    administration of the CMIA agreement. The Iowa
     Iowa           Department of Revenue and Finance has not developed
                    written procedures and the beginning balances, account
                    numbers, and payroll information was not verified.
                 1. The Louisiana Office of Statewide Reporting and Accounting                 0
                    Policy (OSRAP) used inaccurate clearance pattern
                    information to request cash draws. After receipt of the
   Louisiana
                    clearance patterns OSRAP does no further investigation to
                    assure that the check clearance patterns are representative
                    of normal and actual clearance patterns.

                 1. The Michigan DDS’ program expenditures on the Report of             1,800,000
                    Obligations (Form SSA-4513) were $1.8 million more than
                    the amounts reported in the State’s accounting system for the
                    2-year period ending September 30, 1996. The parent
                    agency for the DDS, the Family Independence Agency,
  Michigan          attributed the difference to indirect cost expenditures not
  1995/1996         being included on the Report of Obligations.

                 2. Program expenditures on the Schedule of Federal Financial                  0
                    Assistance were $2.2 million greater than, and $1.9 million
                    less than, amounts reported in the State’s accounting system
                    for Fiscal Years (FY) 1995 and 1996, respectively.

                 1. Security administration procedures at the Minnesota DDS’                   0
                    parent agency, the Department of Economic Security, were
                    not sufficient.

                 2. Employees were granted inappropriate access to mainframe                   0
                    data.
  Minnesota
                 3. A comprehensive disaster recovery plan to be followed in the               0
                    event of a disaster that adversely affects the data processing
                    operations was not developed.

                     All three of these findings were reported in the prior year’s
                     single audit.
                 1. Personnel costs of Mississippi DDS’ employees who
                                                                                               0
                    performed non-Social Security Administration (SSA) work
                    were inappropriately charged to SSA. The State auditor did
                    not determine the amount of unallowable charges. Our
                    discussions with the Auditor further disclosed that the DDS’
  Mississippi       parent agency, the Department of Rehabilitation Services, did
                    not have a system in place to account for the time DDS
                    employees spent on non-SSA work. As such, the State was
                    not in compliance with the terms of the Memorandum of
                    Understanding that allows the DDS to process non-SSA
                    work.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                            B-2
                                                                                        QUESTIONED
   STATE                              DIRECT FINDINGS
                                                                                          COSTS
                 1. The New York DDS’ parent agency, the Office of Temporary                     $0
                    and Disability Assistance, did not have procedures to identify
                    and exclude from its procurement process those
                    subcontractors and subrecipients barred from participation in
                    Federal programs.

                 2. Claims were not properly reviewed to determine whether the                    0
                    costs were allowable. This finding was also included in the
                    State’s single audit for the prior year.

                 3. Voucher reviews of training contractor costs were not                         0
                    performed. This finding was also included in the State’s
   New York
                    single audit for the prior year.

                 4. Office of Management and Budget Circular A-87 standards                       0
                    for cost allocation methodologies were not followed.

                 5. Employee timesheets contained coding errors, resulting in                     0
                    payroll costs being allocated improperly. In addition, reviews
                    of employee time sheets were not performed. This finding
                    was also included in the State’s single audit for the prior year.

                 6. Vouchers supporting non-personal service and training costs                   0
                    were not properly maintained.
                                                                                                  0
                 1. Federal funds drawn for employee payroll tax and benefit
                    costs were held for extended periods of time resulting in
                    material noncompliance with cash management standards
                    and an undetermined amount of interest liability due to the
                    Federal government. This finding was also included in the
 Pennsylvania       State’s single audit for the prior year.
                                                                                                  0
                 2. The DDS did not have adequate general controls over its
                    computer system in the areas of logical access and
                    contingency planning. This finding was also included in the
                    State’s single audit for the prior year.

                 1. When SSA implemented a new system to request DDS                              0
                    funds, the Texas Rehabilitation Commission did not
                    recalculate the number of days from the date funds were
     Texas
                    received to the date the funds were disbursed. This change
                    increased the interest liability to the Federal government by
                    $10,307.

                                                     Total Questioned Costs              $1,800,000




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                              B-3
                                                                                      Appendix C
Crosscutting Findings Reported
in 42 Single Audits
                                                                                        QUESTIONED
    STATE                         CROSSCUTTING FINDINGS
                                                                                          COSTS1
                  1. There was no formal written contingency plan that includes                      $0
                     policies and procedures to be followed in the event of a
                     disaster.

                  2. Controls did not exist to include depreciation expense of the                     0
                     equipment used to provide goods and services.
    Alabama
                  3. The method of allocation for purchases did not comply with the                    0
                     policies and procedures of the State Bid Law for costs incurred.

                  4. Costs incurred with Federal funds were not allocable to a                         0
                     particular cost objective in accordance with the benefits
                     received.
                  1. Administrative costs were not within cost limitations and were                    0
                     not accurately reported on Federal financial reports.

    Alaska        2. Distribution of personal service costs to Federal programs did                    0
                     not comply with Federal requirements. Periodic certifications
                     stating that an employee worked solely on a program were not
                     maintained.
                  1. Drawdowns of Federal funds were not properly recorded and
                                                                                                       0
                     were not supported by grant expenditures.

                  2. Federal drawdown requests were based on estimated
                                                                                                       0
                     expenditures for the month and records were not maintained to
                     monitor the timing of the draws against the program’s actual
                     expenditures.

                  3. Purchases were made without obtaining competitive bids, bids
    Arizona                                                                                            0
                     were not properly evaluated, price quotes were not obtained,
                     and various other procurement procedure weaknesses were
                     identified.

                  4. There was no formal contingency plan implemented to be used
                                                                                                       0
                     in the case of a disaster.

                  5. The amount of disbursements was overstated on the Federal
                                                                                                       0
                     Cash Transactions Report.

1
 These amounts were reported in the single audit reports as questioned costs for various Federal
programs. They were not specifically identified to the Social Security Administration’s (SSA) disability
programs.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                       C-1
                                                                                      QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                        COSTS1
                   1. Instructions to agencies regarding Cash Management
                                                                                             $0
                      Improvement Act (CMIA) transactions were inconsistent with
                      the default procedures, and the interest liability due to the
                      Federal government was inaccurate.
                                                                                             0
   California      2. Limitations in the automated accounting systems did not allow
                      for the State to report expenditures by program on the
                      Schedule of Expenditures of Federal Awards.
                                                                                             0
                   3. Quarterly financial status reports were not reconciled to
                      accounting records.
                   1. The method of performing cash draws did not link specific
   Colorado                                                                                  0
                      disbursements to cash draws and cash receipts.
                                                                                             0
                   1. Transfer invoices, which were for reimbursement of
                      expenditures from one agency to another, were coded as
                      transfer of grants between State agencies and therefore not
                      included in the agency's Cost Allocation Plan.
                                                                                             0
                   2. Contractors receiving individual awards of $100,000 or more
                      were not required to certify that the organization and its
                      principals were not suspended or debarred.

                   3. The quarterly expenditure report was inaccurate.
  Connecticut                                                                                0
                   4. Amounts reported on monthly reports were misstated.
                                                                                             0
                   5. Two employees whose salaries were charged 100 percent to a
                                                                                             0
                      Federal program did not devote time to the program and one
                      employee whose salary was charged 50 percent to a Federal
                      program did not direct efforts towards the programs.

                   6. Expenditures were not supported by documentation or
                                                                                             0
                      documentation did not support dates of service.

                   1. The Department did not obtain the required certification of            0
                      debarment and suspension for vendors receiving awards of
                      $100,000.

                   2. Drawdowns of excess funds resulted in a positive balance for           0
                      more than 3 days.
   Delaware
                   3. Account reconciliations were not performed.                            0

                   4. The report used to track account balances contained                    0
                      erroneous data.

                   5. Several Federal programs had interest liability calculated on          0
                      inaccurate account balances.


Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                              C-2
                                                                                        QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                          COSTS1
                   1. There was untimely submission of invoices by vendors and
                                                                                               $0
                      program managers resulting in previous year’s goods and
                      services being paid for and charged to the subsequent year's
                      grant awards.
                                                                                                0
                   2. Charges recorded on the agency's expenditure report were
                      different from those shown on the actual vouchers.
                                                                                            92,099
                   3. Costs charged to the program could not be substantiated in
                      order to receive reimbursement because adequate supporting
                      documentation and invoices could not be provided.
                                                                                                0
                   4. Federal awards received showed that information, such as the
                      Catalog of Federal Domestic Assistance (CFDA) numbers,
                      grant award numbers, and/or amounts, was either missing or
                      incorrectly stated.
                                                                                                0
                   5. The Financial Management System was not programmed to
                      capture actual disbursements made by the program in order to
   District of
                      correspond to the expenditures charged.
   Columbia                                                                                     0
     1997
                   6. The interest liability was not calculated timely and cash draws
                      were not performed timely.
                                                                                                0
                   7. The Department did not maintain adequate controls over bank
                      accounts by performing a review of bank account
                      reconciliations.
                                                                                                0
                   8. Inaccurate financial status reports were filed.
                                                                                                0
                   9. Required documentation for subrecipient and vendor contract
                      files was missing.
                                                                                                0
                   10. Charges were incurred for goods and services received prior to
                       the issuance of purchase orders authorizing the expenditures.

                   11. There were no mechanisms in place for physical inventory
                                                                                                0
                       tracking and the agency was unable to identify the source of
                       funds used to acquire assets that were disposed during the
                       fiscal year.




Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                 C-3
                                                                                       QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                         COSTS1
                                                                                              $0
                   1. Contract numbers on vouchers were inconsistent and may
                      result in processing errors and inefficiencies in monitoring
                      contracting activity.
                                                                                               0
                   2. Invoices were not stamped showing that they were paid in
                      order to prevent duplicate payments.
                                                                                               0
                   3. Inaccurate financial status reports were filed.
                                                                                               0
                   4. Required documentation for subrecipient and vendor contract
                      files was missing.
                                                                                               0
                   5. There are no mechanisms in place for physical inventory
                      tracking and the agency was unable to identify the source of
                      funds used to acquire assets that were disposed during the
                      fiscal year.
                                                                                               0
                   6. The interest was not calculated timely and cash draws were
                      not performed timely.
   District of
                   7. The Financial Management System was not programmed to                    0
   Columbia
                      capture actual disbursements made by the program in order to
     1998
                      correspond to the expenditures charged.

                   8. Charges were incurred for goods and services received prior to           0
                      the issuance of purchase orders authorizing the expenditures.

                   9. There was untimely submission of invoices by vendors and
                      program managers resulting in previous year’s goods and                  0
                      services being paid for and charged to the subsequent year's
                      grant awards.

                   10. Charges recorded on the agency's expenditure report were                0
                       different from those shown on the actual vouchers.

                   11. Costs charged to the program could not be substantiated in
                       order to receive reimbursement because adequate supporting         446,937
                       documentation and invoices could not be provided.

                   12. Federal awards received showed that information such as the
                       CFDA numbers, grant award numbers, and/or amounts was                   0
                       either missing or incorrectly stated.




Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                C-4
                                                                                           QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                             COSTS1
                   1. Expenditures were inappropriately reported as part of two                   $0
                      awards.

                   2. Personnel and salary expenditures charged to Federal                         0
                      programs were erroneously recorded to another grant in
                      addition to being recorded as a prior year adjustment.

                   3. Required certifications that contractors were not debarred or                0
     Florida
                      suspended were not obtained.

                   4. Final expenditure data reported did not always agree with the                0
                      accounting and budgetary control system.

                   5. Data processing and computer equipment items were not                        0
                      recorded in the property records or marked with a permanent
                      property tag.

                   1. The Department did not maintain adequate records linking                     0
                      additions and disposals of computer services equipment items
                      to the property management records.

                   2. Equipment inventories were not maintained according to the                   0
                      State Property Management System Manual.

                   3. There were no controls in place to determine whether                         0
                      contractors paid from Federal funds had been debarred,
                      suspended, or excluded from Federal award participation.
    Georgia
                   4. The State improperly collected indirect costs based on the              785,600
                      Department's unsupported equipment inventories.

                   5. Accounting practices for equipment were inappropriate.                       0

                   6. A computer terminal could not be located.                                 1,326

                   7. Items could not be located and accounting records were not                   0
                      properly maintained.


                   1. Security locks were not used to restrict access to computer                  0
                      equipment and files.

                   2. Written justification on the basis of selection of contractors was           0
                      not maintained.
     Guam
                   3. Overtime hours were excessive.                                               0

                   4. Journal vouchers used to reverse the revenue suspense                        0
                      account did not contain signatures to indicate review.

                   5. Maintenance procedures could not be located.                                 0

Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                    C-5
                                                                                        QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                          COSTS1

                   6. Deposits were made to an incorrect account, and a correction             $0
                      was not recorded.

                   7. Travel requests did not contain required justifications.                  0

                   8. Travel expenditures were not supported by documentation.                  0

                   9. Travel vouchers were not processed timely.                                0

                   10. Assets were disposed of but were included in the fixed asset             0
                       system.

                   11. A complete physical inventory of fixed assets was not                    0
                       performed.

                   12. Fixed asset records did not properly document the titleholder.           0

                   13. The cash transaction report was not filed timely.                        0

     Guam          14. Cash reconciliation documentation may be misrouted and not               0
  (Continued)          received timely.

                   15. Check copy, invoice, receiving report, or payment request was        20,589
                       not on file to substantiate expenditures.

                   16. Accounts receivable was not substantiated.                               0

                   17. The methodology for accounts receivable allowance for                    0
                       doubtful accounts was not documented.

                   18. The accounts receivable subsidiary ledger had several                    0
                       negative balances, and were not reconciled in a timely manner.

                   19. Collection policies were not enforced for travel advance                 0
                       receivables.

                   20. Vendor invoices did not support expenditures.                            0

                   21. Assets selected for testing were not made available for                  0
                       inspection.




Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                 C-6
                                                                                       QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                         COSTS1
                   1. Federal reports showing overpayment totals were not                      $0
                      accurately reported.

                   2. Vacation and sick leave records were not maintained on a                  0
                      timely basis and there was a lack of adequate review
     Hawaii           procedures to ensure that information was accurate and
                      complete.

                   3. Contracts from vendors were not executed in a timely manner.              0

                   4. Federal reports were not submitted in a timely manner.                    0

                   1. Inaccurate coding resulted in employees not receiving benefits
     Idaho                                                                                      0
                      to which they were entitled.

                   1. Excessive cash draws were made.                                           0

                   2. Written procedures for administering Federal funds were not               0
                      maintained.

                   3. Payroll costs were not supported by time and attendance                   0
                      records for individual employees.

                   4. Excessive cash balances were maintained.                                  0
      Iowa
                   5. Written policies or procedures were not in place to obtain                0
                      debarred and suspended certifications for covered contracts.

                   6. Controls over the accuracy of annual report were inadequate.              0

                   7. Written policies or procedures were not in place to obtain                0
                      debarred and suspended certifications for covered contracts.

                   8. Procedures to ensure Federal funds for administrative payroll             0
                      expenses are requested timely were inadequate.

                   1. Access to the Automated Purchasing System was not                         0
                      adequately controlled.

                   2. Established system development life cycle controls for             3,023,137
                      development and implementation of new systems were not
                      followed.
   Kentucky
                   3. A disaster recovery plan was not developed.                               0

                   4. Logical security procedures were not consistently followed.               0

                   5. Procedures were inadequate to ensure accuracy and                         0
                      completeness of system generated interface files and check
                      tape.


Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                 C-7
                                                                                      QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                        COSTS1
                   6. Federal reports were not submitted in a timely manner.                 $0

                   7. Adequate logical access security for unified personnel and              0
                      payroll system was not implemented.
   Kentucky
  (Continued)      8. Automatic log-off security for the Automated Purchasing                 0
                      System was not implemented.

                   9. Logical access security for the Automated Purchasing System             0
                      was not improved.

                   1. Excess cash balances were maintained.                                   0

                   2. Payments were not properly reviewed and authorized.                   257

                   3. Random moment time sampling was not always conducted.                   0

                   4. Clearance patterns were not completely developed.                       0

                   5. The cost of insurance was billed in a manner that could cause           0
   Louisiana
                      Federal programs to bear an inequitable share of the cost.

                   6. Accounting controls were inadequate over movable property-              0
                      acquisition, disposition, valuation, and location.

                   7. Integrity of data was not maintained by properly restricting            0
                      access.

                   8. Adequate supporting documentation was not maintained.                1,612
                   1. Information was not retained to support amounts reported on             0
                      the Federal financial report.

                   2. Working capital was in excess of amounts allowable under           324,077
                      Circular A-87.

                   3. Payroll costs were not equitably distributed.                       58,567

                   4. Payments were made to providers in excess of authorized               296
                      rates.
     Maine
                   5. The Department could not ensure compliance with suspension              0
                      and debarment requirements.

                   6. The process used to identify and report amounts owed by the             0
                      State were inadequate.

                   7. Supporting documentation for claimed program expenditures          106,500
                      was not maintained.

                   8. Documentation supporting provider payments was insufficient.           33

Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                               C-8
                                                                                             QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                               COSTS1

                   9. Disbursements reported on the quarterly Federal cash                          $0
                      transaction report were not supported.

                   10. The Schedule of Expenditures of Federal Awards was not                        0
                       complete and/or was inaccurate.

                   11. Internal controls associated with the allocation of direct costs to           0
                       Federal grant programs were inadequate.

                   12. A missing spreadsheet formula resulted in excess costs being             150,910
                       charged to Federal programs.
     Maine
  (Continued)
                   13. Internal controls were not adequate to ensure compliance with                 0
                       CMIA.

                   14. Amounts claimed for working capital were excessive,                      324,077
                       disbursements were not in compliance, and account structures
                       were inadequate.

                   15. Payroll costs were not equitably distributed.                             50,588

                   16. The time between the receipt and disbursement of funds was                    0
                       not minimized.

                   1. Internal control procedures were lacking.                                      0

                   2. Documentation supporting the development of the indirect cost                  0
                      rate was inadequate.

                   3. Cost elements included in or excluded from the indirect cost                   0
                      pool were not reviewed to ensure they accurately reflect the
                      operations and functions of the department.

                   4. Electronic Data Interchange controls needed to be improved.                    0

                   5. Access to production and utility libraries was not adequately                  0
Massachusetts
                      restricted.

                   6. There was no disaster recovery plan/continuity plan in place                   0
                      over the communication's room.

                   7. A formal business continuity plan was not developed.                           0

                   8. A statewide information security architecture was not                          0
                      developed.

                   9. Duplicate charges were included in computing indirect cost                     0
                      rates.



Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                                      C-9
                                                                                          QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                            COSTS1

                   10. Additional costs were included in computing indirect cost rates.
                                                                                                 $0
Massachusetts
              11. Numerous differences existed in the cash balance between
 (Continued)                                                                                      0
                  Treasury and the system maintained by the Office of the
                  Comptroller and were not reconciled on a timely basis.

                   1. Internal controls did not ensure proper accounting for                      0
                      transactions.

                   2. Internal control procedures were not followed for the time and          40,346
   Michigan
                      attendance system.
   1995/1996
                   3. Drawdowns were not performed in a timely manner.                            0

                   4. Expenditures were not reconciled between systems.                           0

                   1. Expenditures were not claimed in a timely manner.                           0

                   2. Supporting documentation for federally reimbursed                       92,712
                      expenditures was not maintained.
   Michigan
   1997/1998       3. Prescribed procedures for preparing time and attendance                     0
                      reports were not followed.

                   4. Required payroll documentation for employee time charged to                 0
                      a Federal program was not completed.
                   1. Security administration procedures were insufficient.
                                                                                                  0
                   2. Controls over privileged logon identification records needed
                                                                                                  0
                      improvement.
   Minnesota
                                                                                                  0
                   3. A disaster recovery plan was not prepared.
                                                                                                  0
                   4. The Department did not obtain required Federal certifications
                      regarding suspended and debarred parties.
                   1. Procedures were not developed to adequately support salary                  0
                      and wage costs.
  Mississippi
                   2. Warrant reconciliations were not maintained.                                0
                   1. Funds were not obligated within the period of availability and
    Missouri          obligations were not liquidated within 90 days after end of the        261,149
                      funding period.




Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                               C-10
                                                                                       QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                         COSTS1
                   1. Group profiles were established but no members were defined.            $0

                   2. Access to production programs and data was not properly                  0
                      restricted.

                   3. Reconciliation of cash ledgers to general ledger cash accounts           0
                      was not performed on a regular basis.
   Nebraska
                   4. The Department was approximately 6 months behind in                      0
                      obtaining certifications for employees who work solely on a
                      single Federal award.

                   5. Supporting documentation was not maintained for numbers on               0
                      statistical reports.
    Nevada         1. Errors were found in reports.                                            0
                   1. Supporting documentation was not maintained.                             0

                   2. Expenditures were not reviewed for allowability.                         0

                   3. Procedures were not adequate to ensure claims are made                   0
   New York
                      within the period of availability.

                   4. The cash transaction report was not filed.                               0

                   5. Quarterly expenditure reports were inaccurate.                           0
                   1. Reports were inaccurate.                                                 0

                   2. The Schedule of Expenditures of Federal Awards contained                 0
                      errors caused by failure to perform established control
                      procedures.

                   3. Employees had more access to the Accounting System than                  0
                      necessary for their jobs.

North Carolina 4. Disbursing account reconciliations were not performed timely.                0

                   5. Prescribed procedures were not consistently followed when                0
                      processing cash disbursements.

                   6. Incorrect rates were used for Federal expenditures.                  26,190

                   7. Suspension and debarment certifications were not obtained.               0

                   8. Claims were not properly administered.                               78,724




Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                            C-11
                                                                                          QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                            COSTS1

                   9. Records did not support services billed.                               $57,097

                   10. Amounts were misstated on annual report of services and                    0
                       other schedules.

                   11. Expenditures on the quarterly report were inaccurate.                      0

                   12. Claims were not filed within the period of availability.                   0

                   13. Approvals for service contracts were not obtained prior to                 0
                       receiving services.

                   14. Several claims were paid incorrectly.                                      0

                   15. Program costs were overpaid.                                          415,243
North Carolina
 (Continued)
                   16. Federal program expenditures were reported incorrectly.                    0

                   17. Federal overpayment collections were reported incorrectly and              0
                       expenditures were not recorded in the accounting system.

                   18. Financial reports were inaccurate.                                         0

                   19. The wrong program was charged for expenditures of other               223,386
                       Federal programs.

                   20. Drawdowns were received earlier than two business days prior               0
                       to the corresponding expenditure.

                   21. The Department did not obtain certificates of debarment from               0
                       vendors for equipment purchases.


                   1. Excess cash balances were maintained.                                   19,100

                   2. Risk analysis and system security reviews were not performed.               0

                   3. Time records kept for allocation of salaries and wages to cost              0
                      activities that are included in the cost allocation plan were not
                      adequate.
 North Dakota
                   4. Administrative costs were incorrectly charged.                         100,520

                   5. Expenditures were not charged within the period of availability.       296,658

                   6. Payroll costs were charged to a Federal grant where the                 15,062
                      employees did not work 100 percent on the grant.




Note: See page C-1 for footnote explanation.


Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                               C-12
                                                                                       QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                         COSTS1
                   1. Financial reports were not reviewed.                                     $0
      Ohio
                   2. Procedures for requesting and performing payroll processing               0
                      system modifications were not developed.
                   1. Risk assessments of information systems were not performed.               0
    Oregon
                   2. Internal controls over check stock were not adequate.                     0
                   1. The interest liability was inaccurately calculated.
                                                                                                0
                   2. Federal debarred and suspended party regulations were not
                                                                                                0
                      followed when purchasing services.

                   3. Expenditures did not comply with Circular A-87.
                                                                                         9,297,034
                   4. Controls related to logical access, physical access, physical
                                                                                                0
                      environment, systems development, program changes, and
                      segregation of duties were not adequate.

                   5. The statewide cash management system needed
                                                                                                0
                      improvement.
                                                                                                0
                   6. Programming and change control authorization functions were
                      not properly segregated.
 Pennsylvania
                                                                                                0
                   7. The Department did not have a completed disaster recovery
                      plan.
                                                                                                0
                   8. Controls related to logical access, physical access, physical
                      environment, systems development, program changes, and
                      segregation of duties were not adequate.
                                                                                                0
                   9. The Department did not have a completed disaster recovery
                      plan.
                                                                                                0
                   10. The Department did not have written procedures for preparing,
                       reviewing, and submitting the annual report.
                                                                                                0
                   11. Controls related to logical access, physical access, physical
                       environment, systems development, program changes, and
                       segregation of duties were not adequate.
                   1. The review process of accounting and financial data, such as              0
                      interfund transfers, accounts receivable and payable, and bank
                      reconciliations were not timely.

                   2. A physical inventory was not performed and equipment                      0
  Puerto Rico
                      reported in the general ledger did not agree with property
                      records.

                   3. Disbursements and receipts reported to Federal agencies were              0
                      not reconciled to accounting records.

Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                             C-13
                                                                                          QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                            COSTS1
                   4. Budget versus expenditure amounts were not monitored.
                                                                                                 $0
                   5. A copy of the financial status report was not maintained.
                                                                                                  0
                   6. Federal funds were used for the wrong program.
                                                                                                  0
                   7. Excess cash was maintained in bank accounts.
                                                                                                  0
                   8. Disbursement documentation was not maintained.
                                                                                              17,629
                   9. An approved cost allocation plan was not implemented.
                                                                                                  0
                   10. Program funds were not properly accounted for based on the
                                                                                                  0
                       period of availability.

                   11. Bank reconciliations were not performed timely and the general
                                                                                                  0
                       ledger cash account did not agree with the bank statement.
                                                                                                  0
                   12. The personnel files did not contain required documents.
  Puerto Rico
                   13. Personnel files did not contain required documents.
  (Continued)                                                                                     0
                   14. The consolidated report was inaccurately prepared.
                                                                                             122,945
                   15. Financial reports were not properly authorized.
                                                                                                  0
                   16. Supporting documents were not available for review.
                                                                                               1,706
                   17. The consolidated report did not agree to the general ledger.
                                                                                             161,431
                   18. The cash transaction report was not prepared.
                                                                                                  0
                   19. Required Federal reports were not submitted timely.
                                                                                                  0
                   20. The financial status report was not retained.
                                                                                                  0
                   21. The general ledger did not include the complete financial
                                                                                                  0
                       position of assets, liabilities and fund balance at fiscal year
                       end.
                                                                                                  0
                   22. The administrative State plan was not available to the auditors.




Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                               C-14
                                                                                        QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                          COSTS1
                   1. Periodic certifications for employees who worked solely on one
                                                                                               $0
                      program were not prepared.

                   2. Controls for user access for the State accounting system were
                                                                                                0
                      inadequate.

                   3. Unique passwords were not required.
                                                                                                0
                   4. A formal disaster recovery plan was not prepared.
                                                                                                0
                   5. A statewide system to control fixed assets was not developed.
                                                                                                0
                   6. Controls were not adequate to ensure compliance with the
                                                                                                0
                      cash management requirements.

                   7. The wrong formula was used to compute the interest liability.
                                                                                                0
                   8. Personnel costs were not properly allocated in accordance with
                                                                                           191,278
                      Circular A-87.
 Rhode Island
                   9. Contractors were not required to certify that the organization
                                                                                                0
                      and its principals were not suspended or debarred.

                   10. Time was not allocated to programs employees worked on—
                                                                                            72,000
                       100 percent of the time was charged to one program.

                   11. A system security plan, including disaster recovery and
                                                                                                0
                       password controls was not in effect.

                   12. The expenditure report was inaccurate.
                                                                                                0
                   13. Outstanding checks were not identified and credited to Federal
                                                                                            18,945
                       programs.

                   14. The Department did not require contractors to certify that the
                                                                                                0
                       organization and its principals were not suspended or
                       debarred.
                                                                                            20,146
                   15. Expenditures were not supported by documentation.
                   1. Accounting records were not reconciled to reports.                        0

                   2. Access to production data and programs was not properly                   0
                      restricted.

South Carolina 3. A formal information security policy was not developed.                       0

                   4. Security access was not removed when employees left or                    0
                      transferred.

                   5. The disaster recovery plan was not updated or tested.                     0

Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                             C-15
                                                                                          QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                            COSTS1
                   1. Signature authorization procedures were not adequate.                      $0

                   2. Inventory tagging and billing procedures were inadequate.                   0

                   3. Procedures for billing dedicated equipment were inadequate.                 0

                   4. The accounting and reporting system changes were not                        0
                      properly approved.

                   5. Documentation to support access to the on-line purchasing                   0
                      system was not on file.

  Tennessee        6. Transactions were processed with errors because they did not                0
                      go through the pre-audit process.

                   7. Access to the State employee information system was not                     0
                      regularly reviewed.

                   8. Duties of employees performing payroll functions were not                   0
                      adequately segregated.

                   9. Controls over the property system needed to be improved.                    0

                   10. Controls over program changes in the on-line purchasing                    0
                       system needed improvement.
                   1. Authorization of transactions was not properly limited.
                                                                                                  0
                   2. User access was not properly limited.
      Utah                                                                                        0
                   3. Statewide contracts did not always include certification that the
                                                                                                  0
                      vendor was not suspended or debarred.
                   1. Quarterly expenditure reports were not accurate.                         5,841
    Vermont
                   2. Stale dated checks were not canceled or credited to Federal             52,781
                      programs.

                   1. Notification of employee termination was not provided.                      0

                   2. User access was not monitored.                                              0

                   3. A contingency plan was not developed.                                       0
    Virginia
                   4. Guidelines for determining data access were not established.                0

                   5. Vendor access was not properly terminated.                                  0

                   6. Identification badges were not properly displayed.                          0

                   1. Personal service contracts were not competitively solicited, or
  Washington                                                                                 355,495
                      justified when determined to be sole source.

Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                               C-16
                                                                                        QUESTIONED
    STATE                           CROSSCUTTING FINDINGS
                                                                                          COSTS1
                   1. Reporting procedures were insufficient to identify, verify, and           $0
                      report stale warrants by grant.

                   2. The cost allocation plan did not contain all central service               0
 West Virginia
                      costs.

                   3. Debarment and suspension certificates were not obtained from          651,688
                      vendors.
                   1. Inventory records were inaccurate and a physical inventory                 0
                      was not conducted.

                   2. Funds lapsed to the general fund representing excess                       0
                      computer user fees charged to Federal programs.

                   3. Quarterly expenditure reports were not reconciled.                         0

                   4. A security plan was not developed and a risk analysis was not              0
                      performed.

                   5. An incorrect reporting category was used to draw Federal                   0
                      funds or return previously received funds.

                   6. Statewide central service costs were charged as both direct            29,299
                      and indirect costs.

                   7. Programmers had write access to most production files that                 0
                      allowed them to change information in these files directly.

   Wisconsin       8. Changes to production data and financial transactions were not             0
                      properly restricted.

                   9. Access was not restricted.                                                 0

                   10. Programmers for the central accounting system had write and               0
                       allocate access to production data that allowed programmers
                       to change the data stored in the dataset.

                   11. Access to production programs was not properly restricted.                0
                       Programmers could move programs from test to production
                       without proper oversight and review.

                   12. Controls for securing the computing environment, including                0
                       access to critical functions, were inadequate.

                   13. Costs were inappropriately included in the indirect cost pool             0
                       that were also allocated to other State agencies through the
                       statewide cost allocation plan.

                   14. A disaster recovery plan was not developed.                               0

                                                         Total Questioned Costs         $18,011,010
Note: See page C-1 for footnote explanation.



Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                              C-17
                                                                                         Appendix D
Findings Identified by the Office of the Inspector
General (OIG) During the Same Time Frame as
the Single Audits Reviewed
                                                                                          QUESTIONED
    OIG AUDIT                                 OIG FINDINGS1
                                                                                            COSTS

                      1. Vendor payments were not supported by invoices.                      $10,313

                      2. Documentation supporting the office lease payment was not              8,958
                         provided.

                      3. Batches of vendor invoices were charged in total to the                8,286
  Audit of the
                         Disability Determination Services (DDS) that included work
 Administrative
                         that was not for the DDS.
 Costs Claimed
by the District of
                      4. Payments were made in excess of the DDS’ payment scale                    0
    Columbia
                         for medical evidence of record.
    Disability
 Determination
                      5. The DDS did not document the indirect cost obligation                     0
    Division
                         through its Financial Management Systems accounting and
(A-13-98-91003)
                         statistical records.

                      6. The DDS could not provide some of the contract files and                  0
                         purchase orders requested for review.

                      7. The DDS could not provide all requested cancelled checks.                 0

  Audit of the
 Administrative
 Costs Claimed        1. Rental expense for State Fiscal Year (SFY) 1999 was                   55,987
 by the Oregon           incorrectly accounted for and charged to SFY 1998.
    Disability
 Determination        2. Cash draws were made in excess of immediate cash needs.               27,544
    Services
(A-15-99-52021)

                                                           Total Questioned Costs           $111,088




1
    Only the findings identified for the same period as the single audit are reported.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)
                                                                       Appendix E

Agency Comments





Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)
MEMORANDUM


                                                                               Refer To:   SIJ-3
Date:      August   29,2001

To:        James G. Ruse, Jr.
           Inspector General    (

From:      Larry G. Massanari                    '~
                        ..
                                                 ~

           Office of the Inspe9tor General (OIG) Draft Report, "Summary of Fiscal Year 2000 Single Audit
Subject:
           Oversight Activities" (A-07 -00-10032)-INFORMA    TION


           Thank you for the opportunity to review and comment on the subject report. We appreciate
           GIG's efforts in conducting this review, and our commentsare attached. .




           Attachment:
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “SUMMARY OF
FISCAL YEAR 2000 SINGLE AUDIT OVERSIGHT ACTIVITIES” A-07-00-10032

We appreciate the opportunity to comment on the draft report. The OIG recommended that SSA
provide instructions to the Disability Determination Services (DDS) to address eight internal
control issues. Following are our comments on the recommendations.

Recommendation 1
Adhere to the terms of the Cash Management Improvement Act agreement (CMIA).
SSA Comment
We will issue a DDS Administrators Letter by the end of November 2001 reminding the States to
adhere to the terms of their CMIA agreements.
Since the CMIA agreements are between the States and the Department of Treasury (DT), SSA
has a limited role with respect to these agreements. Therefore, we suggest that the OIG bring the
results of its review on this matter to the attention of the DT Inspector General for follow-up
action by that agency.
Recommendation 2
Implement procurement procedures to prevent the awarding of contracts and subawards to
debarred or suspended parties.
SSA Comment
We agree with this recommendation and will issue a DDS Administrators Letter by the end of
November 2001.
Recommendation 3
Follow established procurement instructions.
SSA Comment
We agree with this recommendation and will issue a DDS Administrators Letter by the end of
November 2001 reminding the States to follow established procurement instructions.
Recommendation 4
Implement controls to prevent unauthorized computer access.
SSA Comment
We agree with this recommendation. On May 25, 1999 the Office of Disability and Income
Security Programs issued a Regional Commissioners Memorandum and a DDS Administrators
Letter regarding DDS systems security. SSA is continuing its efforts to prevent unauthorized
computer access.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                          E-2
Recommendation 5
Develop a formal contingency plan to prevent disruption of services in the event of a disaster.
SSA Comment
We agree with this recommendation. On August 6, 2001, the Office of Disability issued a DDS
Administrators Letter transmitting the Final DDS Security Document which covers developing a
formal contingency plan to prevent disruption of services in the event of a disaster.
Recommendation 6
Maintain complete and accurate equipment inventory records and perform periodic physical
inventories.
SSA Comment
We agree with this recommendation and will issue a DDS Administrators Letter by the end of
November 2001 reminding the States to maintain complete and accurate equipment inventory
records and perform periodic physical inventories.
Recommendation 7
Implement effective procedures for preparing, reviewing, approving, and timely reporting of
information on the Report of Obligations and the Time Report of Personal Services.
SSA Comment
We agree with this recommendation and will issue a DDS Administrators Letter by the end of
November 2001 to remind the States to implement effective procedures for preparing, reviewing,
approving and timely reporting of information on the Report of Obligations and the Time Report
of Personal Services.
Recommendation 8
Ensure that costs charged to SSA benefit its programs and are properly authorized and
documented.
SSA Comment
We agree with this recommendation and will issue a DDS Administrators Letter by the end of
November 2001 reminding the States to ensure that costs charged to SSA benefit its programs
and are properly authorized and documented.




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)                              E-3
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

   Mark Bailey, Deputy Director, Disability Program Audit Division, (816) 936-5591

Acknowledgments

In addition to those named above:

   Shannon Agee, Auditor in Charge

   Wanda Craig, Auditor


For additional copies of this report, please contact Office of the Inspector General's
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-07-00-10032




Summary of FY 2000 Single Audit Oversight Activities (A-07-00-10032)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
